No. 20-772
IN THE

Supreme Court of the United States
WATERFRONT COMMISSION OF NEW YORK HARBOR,
Petitioner,
v.
GOVERNOR OF NEW JERSEY, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 16th day of March, 2021, all parties required to be served have been served copies
of the Reply Brief for Petitioner in this matter by overnight courier to the addresses on
the attached service list.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

GURBIR S. GREWAL
NEW JERSEY ATTORNEY GENERAL
JEREMY M. FEIGENBAUM
SOLICITOR
OFFICE OF NEW JERSEY ATTORNEY GENERAL
25 Market Street
Trenton, NJ 08625
(609) 292-4925
jeremy.feigenbaum@njoag.gov
LEON J. SOKOL
CULLEN & DYKMAN
433 Hackensack Avenue
Hackensack, NJ 07601
(201) 679-9994
lsokol@cullenllp.com

2

